Case 2:15-cr-00190-MCE Document 677 Filed 04/23/21 Page 1 of 1
UNITED STATES COURT OF APPEALS

FILED

FOR THE NINTH CIRCUIT

APR 23 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

In re: JAMES CHRISTOPHER CASTLE;
REGINALD LAMONT THOMAS.

No.

JAMES CHRISTOPHER CASTLE;
REGINALD LAMONT THOMAS,

D.C. Nos.
2:15- cr-00190-MCE-2
2:20-cr-00012-MCE
Eastern District of California,
Sacramento

21-70683

Petitioners,
ORDER
v.
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF
CALIFORNIA, SACRAMENTO,
Respondent.
Before: CLIFTON, MILLER, and BRESS, Circuit Judges.
Petitioners have not demonstrated that this case warrants the intervention of
this court by means of the extraordinary remedy of mandamus. See Bauman v.
U.S. Dist. Court, 557 F.2d 650 (9th Cir. 1977). Accordingly, the petition is denied.
Petitioners’ motion to proceed in forma pauperis (Docket Entry No. 3) is
denied as moot.
No further filings will be accepted in this closed case.
DENIED.

k?PbHmX
-Z3~

\

'■t\
A

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF CALIFORNIA
5011 STREET, SUITE 15-220
SACRAMENTO, CA 95814
Chambers of
KIMBERLY J. MUELLER
Chief United States District Judge

(916) 930-4260

. Via e-mail

Chief Judge Sidney R. Thomas
Judicial Council of the Ninth Circuit
c/o Libby A. Smith, Circuit Executive
United States Courts for the Ninth Circuit
James R. Browning United States Courthouse
95 Seventh Street
San Francisco, California 94103
RE: Eastern District of California’ s Request for Suspension of Speedy Trial
Act Deadlines Given Judicial Emergency Due to Goronavirus Disease-2019
(COVTD-19) Pandemic (18 U.S.C. § 3174)
Dear Chief Judge Thomas:

/

\S

■Lwrite-qnbehalf of the Eastern District of California torequest that the Judicial
Council of the Ninth Circuit.grants ^spjasionof thSTESTmits provided by the
Swldtol^?o‘to exceed one year,
as allowed by 18 U.S.C. £ 3174(b).1 This letter serves as my certification that the
GS§tem.]Distnct of California is unable to comply with the time limits set forth in
section 3161(c) due to
in the
status of our court calendars and the limited capabilities of our district with our
insufficient number of district judges, despite our efficient use of existing
resources. The COVID-19 pandemic has exacerbated our pre-existing emergency
such that there simply are noj^erpptigris for alleviating omSlendar congestion,
despite the many steps we have been taking to manage the 'curfiSt^T^ThT'
onset.
A QOf* 11
i
* i
I

^

£ h^etYv.rvf co, HlueJtW doei, noV ejx.pf'ius.s

Chief Judge Sidney R. Thomas
April 8,2020
Page Two
Because I know you and the Judicial Council are keenly aware of the
circumstances created by the COVID-19 pandemic and the responses of
governmental and public health organizations, I refrain from a review of relevant
prior events. As of today, however, it is clear that the pandemic is currently
advancing in the 34 counties making up the Eastern District of California. In
Sacramento County alone, the County Public Health Officer reports 580 confirmed
cases and 22 deaths so far; yesterday he extended Sacramento’s shelter-in-place
order to May 1,2020, with the possibility of further extensions, and further
tightened restrictions to severely limit activities outside residential homes. Fresno
County has 156 cases with 3 deaths and also has a shelter-in-place order in effect.
Kern County has a total of 309 cases and 2 deaths, and has declared a local health
emergency based on COVED-19. Earlier today, we have learned two federal
detainees housed in the Kem County Sheriffs Lerdo Detention Facilities have
tested positive for the virus. Given die rapid progress of the disease within our
district in just the last week, and the best public health information available to us,
we expect that our numbers will continue to rise throughout this month, with a
plateau beginning on or about May 1, representing a best-case scenario.
Crisis Management: General Orders and Other Initiatives
Along with other districts throughout the Ninth Circuit, the Eastern District of
California took steps beginning in mid-March in an effort to respond to public
health advisories and get ahead of the curve. Specifically, we have taken the
following formal actions, which we have reported on our court’s web page,
www.caed.uscourts.gov, in an effort to keep the public apprised:
1. On March 12, 2020, in my capacity as Chief Judge, I issued General Order
610, placing restrictions on certain visitors to our courthouses depending on
their travel history, health condition or exposure to persons who had traveled
to countries experiencing coronavirus outbreaks. The order, which has since
been superseded by General Order 612, was intended to protect the safety of
courthouse staff and visitors, in light of the coronavirus pandemic and the
best available public health information available at that time.

ft**

/

Chief Judge Sidney R. Thomas
April 8, 2020
Page Three
*

<*V
/

2. On March 17,2020,1 issued General Order 611, placing limitations on
court proceedings by .^spending civil and^criminal jury trials tfarouehMav
1, 2020, and providing judges with the flexibility to hold hearings to the
extent possible by telephone and video conference. In this order I made a
general finding that time under the Speedy Trial Act was excluded under 18
U.S.C. §31 fth)(7)(A) to May 1, 2020, given the circumstances created by
thepapdeiS jjl issued this order after receiving a request from our Federal
Defender that our court immediately suspend in-person court appearances in
^criminal cases until May 1, 2020. I made clear that grand juries were not
/ suspended, but would be convened at the discretion of the U.S Attorney.

/
/
/
/
/
f

j

I

f

I

!
!
:
I
t
!

1

3. On March 18, 2020, in light of the quickly evolving public health landscape,
I issued General Order 612 closing all federal courthouses in the Eastern
District of California to the public through May 1, 2020. Persons having
official court business could still enter a courthouse with a judge’s approval.
As relevant here, this order provided that criminal matters remained on
calendar unless continued by agreement or by a judge with a Speedy Trial
Act exclusion of time; to the extent possible under the law those matters
maintained on calendar would be heard by telephone or video conference.
On March 20, 2020,1 provided an interpretation of General Order 612,
defining “persons having official court business” and clarifying methods for
members of the media to gain access to court proceedings.
4. On March 25, 2020,1 joined with all members of our Magistrate Judge
bench to issue General Order 613, providing temporary procedures for
providing pretrial services reports by email to assigned counsel appearing at
a criminal proceeding telephonically or by video.

\

\
\

\
\

\
\

\

**

1 While this exclusion serves as a gap-filler covering the period during which we
were transitioning to teleworking and virtual court proceedings, individual judges
continue to make particularized findings to support exclusions of time in the cases
over which they preside.
riftiWf

III

mi

n i nr 1‘iirtiii.M iwm uni

fj

Chief Judge Sidney R. Thomas
April 8, 2020
Page Four

5. On March 30, 2020, following enactment of the Coronavirus Aid, Relief,
and Economic Security Act (“CARES Act”), I issued General Order 614
making the findings required by that Act and authorizing the use of
videoconferencing, or teleconferencing if videoconferencing is not
reasonably available, for the events specified in section 15002(b) of the Act.
6. On April 6, 2020, after several hearings in which we provided audio access
to members of the public, we adopted a protocol for public access and
posted detailed instructions on our webpage.
7. Regarding grand jury proceedings, I have remained in close consultation
with our United States Attorney’s Office and have continued to leave any
summoning of the grand jury to that office’s sound discretion. Our court has
signaled we would allow proceedings, if required in Sacramento, to be held
in our large ceremonial courtroom in the Robert T, Matsui Courthouse to
promote physical distancing, while at the same time expressing our concerns
about the ability for proceedings to go forward without jeopardizing public
health and safety, including the health and safety of grand jurors, witnesses,
counsel and court reporters. To date our court has not needed to consider
overriding any decision of the United States Attorney with respect to grand
juries.
Copies of our General Orders are attached, for ease of reference.
Behind the scenes, our Clerk of Court and I have continually monitored what other
courts are doing, participated in the helpful Circuitwide and nationwide telephone
conferences set up to allow information sharing, monitored the messages and
orders issuing from the federal government, State of California and multiple
County Health Offices, and stayed in touch on a regular basis with our bench,
chambers and Clerk’s Office staff, as well as our Chief Probation Officer, Chief
Pretrial Services Officer, U.S. Marshal and Chief Bankruptcy Judge. We have
responded to innumerable email messages from the U.S. Attorney and Federal
Defender and other stakeholders as we facilitate efforts to maintain consensus
~ ijb si’

'

%r,d 1 M

*s?f

l{%
*

/

T.

j

£jfjrv ’ "sAA &*$

Chief Judge Sidney R. Thomas
April 8, 2020
Page Five

regarding the design and functionality of our virtual court setup, which has taken
longer to deploy than anticipated given the decidedly mixed capabilities at the
many local jails in which our federal pretrial detainees are housed. We have
piloted telephonic court hearings and videoconference proceedings in which all
participants appear remotely, and have recruited other members of the bench and
the Clerk of Court’s staff to expand the bandwidth of our crisis management team.
The Clerk’s Office IT staff in particular has worked nonstop to transition us not
only to virtual court proceedings but to full teleworking for all staff, helping to
address hundreds of infrastructural needs for equipment and the achievement of
remote network access. Our IT staff also has helped solve many new problems,
such as finding an electronic court reporting (ECRO) solution to ensure a good
record for remote court hearings when a live court reporter is not available to
telephone in.
Planning Group Consultation; Reasons for Request

V .

As required by 18 U.S.C. § 3174(a), I have consulted with those persons identified
/ by the statute as members of a court’s Speedy Trial Planning Group to seek their
recommendation. All recommend that our court submit this application requesting
suspension of the Speedy Trial Act’s time limits. One member observed that
ideally the suspension could be revoked, or no longer relied upon, if and when the
court is able to return to normal functioning. Having considered the entirety of our
court’s circumstances, in consultation with Planning Group members and our Clerk
of Court, I have concluded the suspension is necessary given that no other remedy
forjMir current greater congestionis reasonably available. The primary reasons for
my conclusion are summarized below.
The Eastern District of California is operating with severely limited capabilities
during the COVID-19 pandemic. Almost all of our judges and members of court
staff are working remotely, dispersed across an extremely large geographic area.
As noted all of our courthouses are closed to the public. We are holding only those
proceedings that are essential in criminal cases, and only very few time sensitive
civil hearings between now and May 1, 2020, a date that appears likely to be
extended. While we have functioning telephone and videoconferencing
capabilities, conducting our trial court hearings in this way can be very challenging

Chief Judge Sidney R. Thomas
April 8, 2020
Page Six

under the best of circumstances, and does not begin to approximate the quality of
proceeding for which we regularly strive. In terms of submitted matters that we
can resolve on the papers, while we all are set up now to telework and are getting
work done, it is difficult to attain the same level of productivity as we do in
chambers, given some remaining technological challenges including intermittent
internet connections, many employees’ ergonomically inadequate home office
setups, and the understandable distractions that can arise in a home where others
are sheltering in place as well. As we are adjusting to work in new and imperfect
physical circumstances, we are beginning to see a rising stream of new motions
and petitions seeking immediate release from confinement in light of COVID-19,
for which no established law guides the resolution and there often are no easy
answers, particularly given the equitable considerations implicated. These new
matters require attention now, with submitted motions set aside in the meantime.
Even once we can return to our courthouses, as wdall hOpe to do as soon as we
can, we expect then to need time to regroup. W(agicipatga significant backlog of
trials, given that at least 52 trials districtwide have'BSBITcqntinued since midMarch. The first trials will likelv not be held until at least two weeks after our
doors open again, given that jury administrators will need time to identify jury
pools and summon them in. Realistically, our preexisting backlog of motions and
old cases will have grown given the wave of new motions occasioned by the
pandemic, making it unlikely we will have been able to use enough of our time
away from the courthouse to whittle the backlog down in any meaningful way.
No Other Reasonable Remedy Available Against Backdrop of Pre-existing
Emergency
As you know, our district has enjoyed the services of visiting judges on occasion
over the last several years. While we appreciate the work these judges have
performed for us, it has been clear for some time that there is no visiting judge
program that can address our longstanding need for judicial resources; what we
need is resident judges that own full caseloads. Under the current circumstances,
with the accompanying severe restrictions on travel and movement in the
community, obtaining visiting resident judges simply is not a reasonable possibility
in any respect. Even if a cadre of visiting judges were available to assist us by
SO

Chief Judge Sidney R. Thomas
April 8, 2020
Page Seven

working remotely, our existing staff and technological resources are currently
overtaxed to the extent we simphLgagmot support a visiting jqtojaBfflgftJt Ms

time.

&SJL

£>

J

Even apart from the emergency created by the COVTD-19 pandemic, our court
has been operating with increasingly limited resources for many years now. All of
the crisis management tasks summarized above are in addition to the traditional
work of our court, which already is burdened by heavy criminal and civil caseloads
with too few judges. Our preexisting dearth of judicial resources is heightened by
recent transitions: the taking of active senior status by one judge, District Judge
Morrison C. England, and inactive senior status by another, District Judge Garland
E. Burrell, at the end of last year. My predecessor, Chief District Judge Lawrence
J. O’Neill, also has departed the court, taking inactive senior status at the
beginning of February 2020. The two judicial openings created in our Fresno
Division as a result of these career transitions continue to remain vacant, with no
nominations pending. As the Judicial Council well knows, the Eastern District of
California’s plight is nothing new. The population of our district is approaching
8.5 million and yet we have only 6 active district judgeships, including our two
vacancies. Currently, there is only one active District Judge assigned to our Fresno
Division and that judge, District Judge Dale A. Drozd, is the only judge hearing
criminal cases. Because of the many pleas and sentencings he must handle, Judge
Drozd currently holds two full criminal calendars a week, with trials conducted on
* , the other three days of the week, eliminating his ability to hold civil law and
motion calendars. Additionally, Judge Drozd alone reviews all Title HI wiretap
Sjf applications and related proceedings, a not insignificant task in light of the high
, number of complex, gang-related investigations and prosecutions arising in our
Fresno Division.
Even if our two vacancies are filled at some point during this election year, and the
particularly severe congestion in our Fresno Division somewhat relieved, we still
^ will guaH^.§r ^vsj^tior^^stricyud|esMps, as the Judicial Conference has
once again recommended in its mostxecent report to Congress. A more complete
picture of our District’s pressing needs, even before anyone had any sense of the
disruptions COVTD-19 would cause, is painted in our 2021 Biennial Survey of
Article in Judgeships Response, attached.

B'7

S3
(itvli

tHs^

by.ff^)

Chief Judge Sidney R. Thomas
April 8,2020
Page Eight

Conclusion
^ . r- For all of these reasons, based on the impact of the COVID-19 pandemic on the
EL^SSstingi patoju^cidjesources>of the Eastern District of California, our court
> <s# „ respectfully requests the Judicial Council extend the time limits under 18 U.S.C.
§ 3161(c) for a period of time not to exceed one year.
Thank you for your consideration.
Respectfully yours,

(A
CHIEF

FX t
STATES DISTRICT JUDGE

Attachments (General Orders; 2021 Biennial Survey of Article HI Judgeships
Response)

cc: Keith Holland, Clerk of Court, Eastern District of California

sL

Page 1 of 1

IN RE APPROVAL OF THE JUDICIAL EMERGENCY DECLARED IN THE EASTERN DISTRICT OF

un,ted S==srC,RCU,T
[NO NUMBER IN ORIGINAL]
April 16,2020, Decided

Judges, and LEW, Senior District Judge.
Opinion
Opinion by:

Sidney R. Thomas
Opinion

(956 F.3d 1177) ORDER
On March 17, ZOZO, Chief
Eastern District of California pursuant to IS U,9|£^§^3IAt )•

remedy,
9 additional one-year period and

—<-"» «“ e"d

M8y 2'

C::2SS"»K“^
Adopted: April 16,2020
lal Sidney R. Thomas
Hon. Sidney R. Thomas, Chair

file://C:\Program FiIes\LexisNexis\LNCD4x Kiosk\Print\kiosk5-81769892.html

2/24/2021

l

Page 1 of 1

§ 3174. Judicial emergency and implementation
(a) In the event that any district oourt is

dilef ludgTwh'ere^he1existing resources are being

make^ny'reconunendallons'h deems appropriate to a,lev,ate9<!alendar congestion resulting front the lack of
resources.

Indictments or Informations are filed durn£I such' 008 V r?0 U3CS „ 3“6i(b)l, shall not be reduced, nor shall
limits from arrest to indictmen, 88‘ f°dh 'n uses s33?62] be suspended; but suoh time limits from Indictment to
the sanctions set forth In section 3102 [18 uses §3162] p8?“8p "
,|me |,mUs for the trial of cases of
?e«Llfead%Trlobn\,STeb,e,n7detlTd%S'because fhey* are awaiting trial shall not be affected by the
provisions of this section.

j}^*itt»tw^g3ssass£=sM-S
SEr.n.sr™.:; aWAjw^.'^iwjrssfirss
§ 31621 In their entirety, he may apply to the

1'

the decree of compliance In the district with the time

^tlffsorsuth lmJlamPentat.on w,l, have upon such district's practices and
procedures, and provision for adequate notice to all Interested parties.
(2) After review of any such
^elr'e^SuSly l°f ms cSSitet
'■8Uj™
suchlppllcatlon to°the chief Judge^^uch1 dfstrict, together with an explanation setting forth such councils
reasons for refusing io enter such order.
(d) (1) The approval of any appll°ag □"reo^enhe Ad^
shall be reported within ten days to the Director of tn

SXE?S“

of thlbUnftidState30Courts, together
sufficient detail the reasons for granting such

■ -1SSS X“fid.s s,..S.

congestion In the district.
(2) TUB Credo, ttf the Admlnl.tralive OIt^ ?!'I]® HyXfcfflllereX onheUnltad' aiaXTAeVl.^1

sa

suspension w
made by this paragra
on the date of the enactm
(.) ff the chief Judge of the district court concludesthat.the

^t to-eed m“s‘

WlfhTn'“°"o}8e2r of sur?hno°Lrr.heaychfef ludge shall apPp,y to the Judicial council of the circuit for a
suspension pursuant to subsection (a).

SEEV. 1975. r. u 9W19. ™„ 1. f ,91. U S,„. 20.5, *» 2. ,979. P L. 9M3. 5 R 93 S«,.
331

file://C:\Program Files\LexisNexis\LNCD4x Kiosk\Print\kiosk5-l 5d95444.html

2/24/2021

Page 2 of 47

Page 1 of 47
section 3162 [18 USCS § 3162] apply to this subsection.

(f) Notwithstanding the provisions of subsection (b) of this section, for the first twelve-calendarmonth period following the effective date of this section as set forth in section 3163(a) of this chapter
[ 18 USCS § 3163] [,] the time limit imposed with respect to the period between arrest and indictment by
subsection (b) of this section shall be sixty days, for the second such twelve-month period such time
limit shall be forty-five days and for the third such period such time limit shall be thirty-five days.

§3161. Time limits and exclusions
(a) In any case involving a defendant charged with an offense, the appropriate judicial officer, at the
earliest practicable time, shall, after consultation with the counsel for the defendant and the attorney for
the Government, set the case for trial on a day certain, or list it for trial on a weekly or other short-term
trial calendar at a place within the judicial district, so as to assure a speedy trial.
(b) Any information or indictment charging an individual with the commission of an offense shall be
filed within thirty days from the date on which such individual was arrested or served with a summons
in connection with such charges. If an individual has been charged with a felony in a district in which no
grand jury has been in session during such thirty-day period, the period of time for filing of the
indictment shall be extended an additional thirty days.
,

/"'■•

f (c) (1! In any case in which a plea of not_gui|[Y ,is . entered. the trial of a defendant charged in an
WormatioiTormdictment with the commission of an offense shall commence within seventy, dftys from
the filing date (and makingjigbM^^ffifo^tiprlor^djetment,
occyrs. If a defendant consents in writing to be tried before a magistrate [United States magistrate j udge]
on acomplaint, the trial shall commence within seventy days from the date of such consent.
thirfy ^riLs from .thg^ate-on.^.hich.,the^efendantJfrsl^BPea[UbrSltgll.£QunM».<)!^>iPX£.?jJ3'...miysli

(

(g) Notwithstanding the provisions of subsection (c) of this section, for the first twelve-calendarmonth period following the effective date of this section as set forth in section 3163(b) of this chapter
[18 USCS § 3163(b)], the time limit with respect to the period between arraignment and trial imposed
by subsection (c) of this section shall be one hundred and eighty days, for the second such twelve-month
period such time limit shall be one hundred and twenty days, and for the third such period such time
"Htnit-with respect to the period between arraignment and trial shall be eighty days.

(h) Thb following periods of delay shall be excluded in computing the time within which an
1 or an indictment must be filed, or in computing the time within which the trial of any such
v informatidh
trffenwfmist commence:
(1) Any period of delay resulting from other proceedings concerning the defendant, including but
not limited to—
(A) delay resulting from any proceeding, including any examinations, to determine the mental
competency or physical capacity of the defendant;
(B) delay resulting from trial with respect to other charges against the defendant;
(C) delay resulting from any interlocutory appeal;

(d) (1) If any indictment or information is dismissed upon motion of the defendant, or any charge
contained in a complaint filed against an individual is dismissed or otherwise dropped, and thereafter a
complaint is filed against such defendant or individual charging him with the same offense or an offense
based on the same conduct or arising from the same criminal episode, or an information or indictment is
filed charging such defendant with the same offense or an offense based on the same conduct or arising
from the same criminal episode, the provisions of subsections (b) and (c) of this section shall be
applicable with respect to such subsequent complaint, indictment, or information, as the case may be.
(2) If the defendant is to be tried upon an indictment or information dismissed by a trial court and
reinstated following an appeal, the trial shall commence within seventy days from the date the action
occasioning the trial becomes final, except that the court retrying the case may extend the period for trial
not to exceed one hundred and eighty days from the date the action occasioning the trial becomes final if
the unavailability of witnesses or other factors resulting from the passage of time shall make trial within
seventy days impractical. The periods of delay enumerated in section 3161(h) [18 USCS § 3161(h)] are
excluded in computing the time limitations specified in this section. The sanctions of section 3162 [18
USCS § 3162] apply to this subsection.
(e) If the defendant is to be tried again following a declaration by the trial judge of a mistrial or
following an order of such judge for a new trial, the trial shall commence within seventy days from the
date the action occasioning the retrial becomes final. If the defendant is to be tried again following an
appeal or a collateral attack, the trial shall commence within seventy days from the date the action
occasioning the retrial becomes final, except that the court retrying the case may extend the period for
retrial not to exceed one hundred and eighty days from the date the action occasioning the retrial
becomes final if unavailability of witnesses or other factors resulting from passage of time shall make
trial within seventy days impractical. The periods of delay enumerated in section 3161(h) [18 USCS §
3161(h)] are excluded in computing the time limitations specified in this section. The sanctions of

file://C:\Program Files\LexisNexis\LNCD4x Kiosk\Print\KIOSK3-87846314.html

I

9/10/2020

(D) delay resulting from any pretrial motion, from the filing of the motion through the
conclusion of the hearing on, or otfierprompt disposition of, such motion;
(E) delay resulting from any proceeding relating to the transfer of a case or the removal of any
defendant from another district under the Federal Rules of Criminal Procedure;
(F) delay resulting from transportation of any defendant from another district, or to and from
places of examination or hospitalization, except that any time consumed in excess of ten days from the
date an order of removal or an order directing such transportation, and the defendant’s arrival at the
destination shall be presumed to be unreasonable;
(G) delay resulting from consideration by the court of a proposed plea agreement to be entered
into by the defendant and the attorney for the Government; and
(H) delay reasonably attributable to any period, not to exceed thirty days, during which any
proceeding concerning the defendant is actually under advisement by the court.
(2) Any period of delay during which prosecution is deferred by the attorney for the Government
pursuant to written agreement with the defendant, with the approval of the court, for the purpose of
allowing the defendant to demonstrate his good conduct.
(3) (A) Any period of delay resulting from the absence or unavailability of the defendant or an
essential witness.
(B) For purposes of subparagraph (A) of this paragraph, a defendant or an essential witness shall
be considered absent when his whereabouts are unknown and, in addition, he is attempting to avoid
apprehension or prosecution or his whereabouts cannot be determined by due diligence. For purposes of

file://C:\Program Files\LexisNexis\LNCD4xKiosk\Print\KIOSK3-87846314.html

9/10/2020

-A

TUj

j&SLAJbO'KJ

rgup±aX

aWII

. &L

4-

L

Qj'AJojArtA ) JvCTv

&—

AA^OjtaAGjjJ (LAJjynju , AAjnbuiP*
}
J^ACmYIxVV
jAi\Axs^Yr*M7Ak.
oL
fy\
CL

OJA

CL,

OX

,i mJ cjOlAJUu afum/nAj A/nJ JJul^ Aix/niA
I JGieQ.j>
<YL&A>&i- JvOlAMIxJ , 0\ _________________________
JJQ-jx&jnrO
Jj'nJ
\J5~*

irrO

-.AMAajASJrfUAfA

Jtfildl .Jn

A jcdjUUoJL

(kkP*\MAX* *. nrviYY

ika ./' .MAfAXl

^4JL\AMjO~^

j^kaUL

amM-

aosasuchO

(l3 OAJ

A.&. ,

&\ jaubLi^

a
y

%l .lame,!,,.. \tr , ht. AxxyuiQJ ^acojA GJyQ
, is v

a-K
udjLfijci. a/tO

CjPrfVUE

Jt/vO Jbt/rKiLi /y|~.

I

-ixki

JLuvnJb^*

V

0

CyfAjOs

avoa.
i
CQ-fiiL, -io Jot

• »-||^u>

QMmauA^ Yu/mx&UU «» oruerv.. Jja (^QjaaJu^>iikv oAs
\j f.
a
o
AjJ ¥iJvijU,
JjlU>
4AJ)CK^
en op^-CHa&r&M .t axa^uauX.
5
(J
J
*
Tr
1
!
TTw
ekr\(ljDusT \
jutjcbmyyy

V

-WV >

orJCSX, -AVvO-lX u^jj\foj3L^> -MMyy&MA0\
-A.AJISuSl -•

■>

ja^rdtkjpyjA.

M ink

/

Jj«

taWiD

(UjaupyA.-OOX-jjD^O -

^Vrx Cxffr\L^sk,NrYtnf^

all cjasm

-v

.siLmky^ iW jv. JOc i£r ix. -r\
Aa>* .6mA
ijJJailJ AaxxxL ^* Am y a/*
a/fr-DAaAuA. J^m/U\ ^CrW AKl^
\
ijjibiLck jucAmajixaO AWl.. CAlnmiO jkk&AA i\£y\R>
O/fuX

aKqAL

Atofau
hujn)

JhjQ/\>^L
JjAviCVO <NjjAa.XCA
v QJ^£AliM-n-\ 9.A Ama J-Ojur* ojWjl/- wvj

>%
^

*

A3Q- jjv^yuyyygxA. nk JkkiL^ mrrfjJJutj c*mA CAJULftfl. , ^kjQi±A^D±LQVv)A ixr ,b<A CJCrtOkrxi^Vg^ JLxXtkj M
.

Vi

JUvimojig^L^ (^AoJimjdL/ JuuynJ * icr JnaA^ CJcymiixjLLMyiAAtxxMjjnas
jqaoqjuu&- J^rsv__________________________________
Injiwz..
A
amA Jhcr AxjanyL JAva / 0muh\jnc9^ r>L cmmm. „ScrV
*
V
u
JUO^ AaLojw\.f 0.^ .
y

» . T ,

X)Ck\KT\l
1

WvyHr^

T\
!
\

V

tr

tiSS&Bj

I

5

***
$**

■

/

I !
J J|

1

^
CLERK, U.S. DISTRICT COURT
EASTERN DISTRICT OF CALIFORNIA

9

2
3
4

UNTIED STATES DISTRICT COURT
5
EASTERN DISTRICT OF CALIFORNIA

6
7
8

IN RE:

)

GENERAL ORDER NO. 611

)

9
10
u

FINDINGS AND ORDER
AS TO COURT PROCEEDINGS
IN LIGHT OF COVID-19,
ALSO KNOWN AS CORONAVIRUS.

)
)
)

)
)

12

)

13
WHEREAS, the President of the United States of America has declared a national
14
^ I emergency in response to COYID-19, also known as “Coronavirus,” and encouraged limitations
on gatherings of more than 10 persons;
17

WHEREAS, the Governor of the State of California has declared a public health
| emergency throughout the State in response to the spread of COVID-19, and strongly encouraged
certain segments of the population to remain at home at the current time;

WHEREAS, the Centers for Disease Control and Prevention, California Department of
20
21 | Public Health and other public health authorities have advised the taking of precautions, including
22

limiting gathering sizes and practice social distancing, to reduce the possibility of exposure to the

22

virus and slow the spread of the disease;

WHEREAS local health officials in the Eastern District of California in particular have
24
25 || declared local health emergencies in fight of the presence of persons infected with the coronavirus
2£

in their jurisdictions, including in Sacramento and Fresno Counties where the court’s two main

27

courthouses are located, and the outbreak of COVID-19 in the Eastern District has reached the

2g

point where court operations are affected in that many persons at higher risk of serious or fatal
D

1

J

1

illness are involved in court proceedings as attorneys, parties or court staff or being asked to serve

2

the court as jurors;

3

WHEREAS slowing the transmission of the virus in the community is an important part of

4

mitigating the impact of the disease on vulnerable individuals and reducing the immediate burden

5

on the health cars system and the community at large,, including nmmbers of the federal bar and

6

their clients as well as pro se litigants;
WHEREAS the Eastern District court maintains a robust capacity for conducting business

7
8

remotely, and essential court operations can and will continue unimpeded, but not all of the

9

court’s work can be completed at a distance; and
WHEREAS the need for in-court hearings and trials must be balanced against the risk

10

%

11

stemming from the associated interpersonal contact; jury proceedings are inadvisable in the

12

current environment to protect public health and ensure that when juries are seated they represent

13

a cross-section of the community and constitute the required jury of one’s peers to which criminal

14

defendants in particular are entitled, see Thiel v. S. Pac. Co., 328 U.S. 217,220 (1946) (“The

15

American tradition of trial by jury, considered in connection with either criminal or civil

16

proceedings, necessarily contemplates an impartial jury drawn from a cross-section of the

17

community.”); Taylor v. Louisiana, 419 U.S. 522, 537 (1975) (“[T]he Sixth Amendment affords

18

the defendant in a criminal trial the opportunity to have the jury drawn from venires

19

representative of the community[.]”); and even if a jury that meets these requirements could be

20

seated at this point notwithstanding public officials’ urging certain populations to remain home,

21

there is no assurance the jury’s deliberations would be unaffected by continuing health and safety

22

concerns and evolving public health mandates and protocols.
Accordingly, with the concurrence of a majority of the District Judges Of the court, in

23
24

order to protect public health, reduce the size of public gatherings and unnecessary travel, and

25

/////

26

/////

27

/////

28

/////

2

1

ensure the ability to deliver fair and impartial justice to all those who come before the court, the

2

court orders as follows:

3

1. The United States Courthouses in Sacramento, Modesto (with hearings held in

4

Sacramento during ongoing remodeling), Fresno, Bakersfield, Yosemite and Redding

5

will remain open for business, subject to the following limitations.

* «•

i

if *

2. Effective immediately, the court will not call in jurors for service in civil or criminal
7

jury trials until May 1,2020. All civil and criminal jury trials in the Eastern District of California

8

scheduled to begin during this time period are continued pending further order of the court The

W 9

e
?jL

court may issue other orders concerning future continuances as necessary and appropriate.
3. All courtroom proceedings and filing deadlines in a case will remain in place unless

10

//

11
i3
^ 3
4 b
'4, >. A

otherwise ordered by the Judge presiding over that case.
4. The time period of any continuance entered in a criminal case as a result of this order

12
13

shall be excluded under the Speedy Trial Act, 18 U.S.C. § 3161(h)(7)(A), as die court finds based

i4

on the recitals above that the ends of justice served by taking that action outweigh the interests of

15

the parties and the public in a speedy trial Absent further order of the court or any individual

16

judge, the period of exclusion shall be from March 17,2020, to May 1,2020. The court may

17

extend the period of exclusion in a subsequent order as evolving circumstances warrant.

5a

5. Individual
judges may continue to hold hearings,
conferences and bench
trials in the
^__ ^
w
*xj&&s3Sks&ses5iB?
•

19

exercise of their discretion, including by teleconference or videoconference, consistent with this

20

order.
6. Criminal matters before Magistrate Judges, such as initial appearances, arraignments,

4 y?***21
22

detention bearings and the issuance of search warrants, shall continue to take place in the ordinary

23

course, subject to the parties’ established ability to seek continuances or, as allowed by law, the

«*)«*£?*#* 24
Or*
25

holding of telephonic or videoconference appearances.
7. The Bankruptcy Court, Clerk’s Office, Probation Office, Pretrial Services Office and all

26

other court services shall remain openjjending further order of the court, although the method of

27

providing services may be modified to account for COVDD-19 and attendant public health
advisories.
,jiW

X

7*Vi!

,

"V®

i

SfMkr-1* 3*

~f.
a?

1
2
3
4

5
6

ay

'©

8. This order does not affect grand juries, which are convened by the U.S. Attorney and
shall continue to meet as scheduled by his office.
9. This order may be modified, expanded or superseded at any time to account for the
developing nature of the COVID-19 public health emergency.
ITIS SO ORDERED.
DATED: March 16,2020.

7
' 8
9
10
11
12
13
14
15
16
17
'i

18
19
20
21
22
23
24
25
26
27
28
4

Exhibit 2>
l

&Tr&
^1 ^ Cj,.i4«f=>^>

Or-

fadhOT

■^0 ^,‘toio

FILED
April 17, 2020
CLERK, U.S. DISTRICT COURT
EASTERN DISTRICT OF CALIFORNIA

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF CALIFORNIA

IN RE:
EXTENDING TEMPORARY
RESTRICTIONS ON COURTHOUSE
ACCESS AND IN COURT HEARINGS

)
)
)

GENERAL ORDER NO. 617

)
))

WHEREAS, the court previously has issued General Orders addressing the national,
regional and local public health emergency posed by the coronavirus (COYID-19) outbreak by
continuing all trials and closing its courthouses to the public until May 1,2020;
WHEREAS, since the issuance of the court’s prior orders circumstances related to the
outbreak have continued to evolve, with state and local public agencies instituting still further
enhanced measures to manage the spread of the virus and limit the potential for the illness and
death it can cause;
WHEREAS, this week the President of the United States has announced federal
guidelines for reopening the economy, while at the same time deferring to governors to
determine when states will resume normal operations;
WHEREAS, this week the. Governor of California has outlined six steps for reopening
public and private sector operations and lifting restrictions in place throughout the state, without
providing a definite date by which restrictions will be lifted,
AND WHEREAS, the Judges of the United States District Court for the Eastern District
of California, in consultation with the Clerk of Court, continue to closely monitor developments
and balance the various interests implicated by the COVID-19 outbreak and the court’s response

to the outbreak, including: the health ofjurors, witnesses, parties, attorneys, the public whom it is
our privilege to serve, Clerk’s Office and all court staff, Probation and Pretrial Services staff
chambers staff and judges; the constitutional rights of criminal defendants and other parties; and
the public’s interest in, and the court’s duty to ensure, the effective and expeditious
administration ofjustice;
NOW THEREFORE, in light of the best information available to the Judges of the
Eastern District of California at this time, effective immediately through June 1,2020,1 hereby
issue the following Order, on behafEof the Court to supplement, the prior orders issued on March
12,17,18 and 30,2020, with the findings relied on in those orders .incorporated in full herein^
1. In light of the current coronavirus (COVED-19) outbreak, all courthouses of the United
States District Court for the Eastern District of Califomia shall remain closed to the public. Only
persons having official court business as authorized by a Judge of the District Court or the
Bankruptcy Court, or a healthy building tenant having official business on behalf of a tenant
agency, may enter courthouse property. This order applies to the following divisional locations:
(1) The Robert T. Matsui United States Courthouse, 5011 Street, Sacramento;
(2) The Robert E. Coyle United States Courthouse, 2500 Tulare Street, Fresno;
(3) The Redding Federal Courthouse, 2986 Bechelli Lane, Redding;
(4) The Bakersfield Federal Courthouse, 510 19th Street, Bakersfield;
(5) The Yosemite Federal Courthouse, 9004 Castle Cliff Court, Yosemite; and
(6) The Modesto U.S. Bankruptcy Court, 12001 Street, Second Floor, Modesto.
2. The court will not call in jurors for service in civil or criminal jury trials until June 15,

2020, at the earliest, if courthouses reopen to the public on June 1,2020. All civil and criminal
jury trials in the Eastern District of California scheduled to begin before June 15,2020 are
further continued pending further order of the court.
3. All of the court’s civil matters will be decided on the papers, or if the assigned Judge
believes a hearing is necessary, the hearing will be by telephone or videoconference. This applies

to all matters including motion hearings, case management conferences, pretrial conferences and
settlement conferences.
4. In civil matters and bankruptcy matters in which parties represent themselves (pro se
litigants), those parties continue to be strongly encouraged to file documents by mail. For those
unable to file by mail the court is providing drop boxes for filing inside the entrances to the
Sacramento, Fresno and Modesto courthouses, that otherwise previously have accepted handdelivered pro se filings in the Clerk’s Offices for those courts.
5. In the epurt’s criminal matters, all initial appearances, arraignments and other essential
proceedings will continue to be held before the duty Magistrate Judges, unless the parties agree
to continue them; to the full extent possible matters that are maintained on calendar shall be
conducted by telephone or videoconference as provided by General Order 614.
6. In criminal cases before the District Judges, the assigned District Judge may continue
matters to a date after June 1,2020, excluding time under the Speedy Trial Act with reference to
the court’s prior General Order 611 issued on March 17,2020, the court s subsequent declaration
of a judicial emergency based on 18 U.S.C. § 3174, and the Ninth Circuit Judicial Council s
Order of April 16,2020 continuing this court’s judicial emergency for an additional one-year
period and suspending the time limits of 18 U.S.C. § 3161(c) until May 2,2021, with additional
findings to support the exclusion in the Judge’s discretion; if any criminal matters are maintained
on calendar, to the full extent possible they shall be conducted by telephone or videoconference,
also as provMed,by General Order 614.
7. Any Judge may order case-by-case exceptions to any of the above numbered
provisions for non-jury court matters at the discretion of that Judge or upon the request of
counsel, after consultation with counsel.
IT IS SO ORDERED.
DATED: April 17,2020.
FOR THE COURT:

DISTRICT Of CALIFORNIA

£XHlSiT ^

i

FILED

>

May 13, 2020
CLERK, U.S. DISTRICT COURT
EASTERN DISTRICT OF CALIFORNIA

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF CALIFORNIA

IN RE:

)
)

FURTHER EXTENDING TEMPORARY
RESTRICTIONS ON COURTHOUSE
ACCESS AND IN COURT HEARINGS
UNTIL FURTHER NOTICE

)
)
)

GENERAL ORDERNO. 618

)
.)

WHEREAS, the court previously has issued General Orders addressing the national,
regional and local public health emergency posed by the coronavirus (COVID-19) outbreak by
continuing all trials and closing its courthouses to the public until June 1,2020;
WHEREAS, since issuance of the court’s prior orders, the President of the United States
has provided guidelines for reopening public institutions, businesses and the economy generally,
accompanied by proposed gating criteria for states or regions to satisfy before proceeding to a
phased resumption of services and operations;
WHEREAS, the Governor of California has announced that the statewide stay home
order he issued on March 19,2020 remains in effect until further notice, with modifications as of
May 8 and 12 effecting a gradual reopening of lower-risk workplaces, with further reopening
subject to compliance with defined readiness criteria;
WHEREAS, many of the 34 counties within the Eastern District of California continue to
maintain local public health orders supplementing the State of California’s stay home order and
requiring measures to manage the spread of the virus and limit the potential for the illness and
death it can cause;

AND WHEREAS, the Judges of the United States District Court for the Eastern District
of California, in consultation with the Clerk of Court, continue to closely monitor developments
and balance the various interests implicated by the CQVID-19 outbreak and the court s response
to the outbreak, including: the health ofjurors, witnesses, parties, attorneys, the public whom it is
our privilege to serve, Clerk’s Office and all court staff, Probation and Pretrial Services staff,
chambers staff and judges; the constitutional rights of criminal defendants and other parties; and
the public’s interest in, and the court’s duty to ensure, the effective and expeditious
administration of justice;
NOW THEREFORE, in light of the best information available to the Judges of the
Eastern District of California at this time, until farther notice, on behalf of the Court, I hereby
issue the following Order superseding, the, RriorGen^lOrder issued on April
1. In light of the ongoing coronavirus (CQVID-19) pandemic, all courthouses of the
United States District Court for the Eastern District of California shall remain closed to the
public. Only persons having official court business as authorized by a Judge of the District Court
or the Bankruptcy Court, or a healthy building tenant having official business on behalf of a
tenant agency, may enter courthouse property. This order applies to the following divisional
locations:
(1) The Robert T. Matsui United States Courthouse, 5011 Street, Sacramento,
(2) The Robert E. Coyle United States Courthouse, 2500 Tulare Street, Fresno,
(3) The Redding Federal Courthouse, 29416 BschelE Lane, Redding;
(4) The Bakersfield Federal Courthouse, 510 19th Street, Bakersfield;
(5) The Yosemite Federal Courthouse, 9004 Castle Cliff Court, Yosemite; and
(6) The Modesto U.S. Bankruptcy Court, 12001 Street, Second Floor, Modesto.
2.

notice.

The court wifi not call in jurors for service in civil or criminal jury trials until farther

✓

3. All of the court’s civil matters will continue to be decided on the papers, or if the
assigned Judge believes a hearing is necessary, the hearing will be by telephone or
videoconference. This applies to all matters including motion hearings, case management
conferences, pretrial conferences and settlement conferences.
4. In civil matters and bankruptcy matters in which parties represent themselves (pro se
litigants), those parties are strongly encouraged to file documents by mail. For those unable to
file by mail the court is providing drop boxes for filing inside the entrances to the Sacramento,
Fresno and Modesto courthouses, where Clerk’s Offices otherwise previously have accepted
hand-delivered pro se filings.
5. In the court’s criminal matters all initial appearances, arraignments and other essential
proceedings will continue to be held before the duty Magistrate Judges, unless the parties agree
to continue them; to the full extent possible matters that are maintained on calendar shall be
conducted by telephone or video conference as provided by General Order 614, which remains in
effect.

✓

6. In criminal cases before the District Judges, the assigned District Judge may exercise
his or her authority to continue matters, excluding time under the Speedy Trial Act with
reference to the court’s prior General Order 611 issued on March 17,2020, the court’s
subsequent declaration of a judicial emergency based on 18 U.S.C. § 3174, and the Ninth Circuit
Judicial Council’s Order of April 16,2020 continuing this court’s judicial emergency for an
additional one-year period and suspending the time limits of .18 U.S.C.- § 3161(c) until May 2,
2021, with additional findings to support the exclusion in the Judge’s discretion; if any criminal
matters are maintained on calendar, to the full extent possible they shall be conducted by
telephone or video conference, also as provided by General Order 614.
7. Any Judge may order case-by-case exceptions to any of the above numbered
provisions at the discretion of that Judge or upon the request of counsel, after consultation with
counsel and the Clerk of the Court to the extent such an order will impact court staff and
operations.

IT IS SO ORDERED.
DATED: May 13,2020.
FOR THE COURT:

rjct
iHiiT

3&1«DBX1JE&
.
CHIEF IMkED STATES DISTRICT JUDGE
EASTERN DISTRICT OF CALIFORNIA

